      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                           Washington, D.C. 20201



March 23, 2010

TO:            Carmen Nazario
               Assistant Secretary for Children and Families
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Administration for Children and Families TANF Bureau—Internal Control
               Review of the Process for Awarding American Recovery and Reinvestment Act
               Funds (A-02-09-02015)


The attached final report provides the results of our review of internal controls over the process
for awarding American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), funds at the Administration for Children and Families TANF Bureau) This review was part
of the Office of Inspector General’s assessment of whether the Department of Health & Human
Services is using Recovery Act funds in accordance with legal and administrative requirements
and is meeting the accountability objectives defined by the Office of Management and Budget.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
establish rigorous internal controls, oversight mechanisms, and other approaches to meet the
accountability objectives of the Recovery Act.

Our objective was to assess the internal controls the TANF Bureau has in place for awarding
grants funded under the Recovery Act and to determine whether the controls have been suitably
designed.

Most of the internal controls over the grant award process used to award Recovery Act funds, as
described by TANF Bureau management, are suitably designed to provide reasonable assurance
that the specified internal controls objectives would be achieved if the described internal controls
were complied with satisfactorily and applied as designed. However, the Recovery Act
Page 2 – Carmen Nazario


established TANF funding mechanisms that used caseload and expenditure information that was
not readily available to ACF. According to its Recovery Program Plan submitted to OMB, the
TANF Bureau does not have internal control procedures in place to ensure the accuracy of
estimated caseload and expenditure information submitted by grantees. The TANF Bureau
subsequently developed procedures to reconcile estimated information with actual data and for
remitting funds resulting from overpayments due to estimated data. The procedures are currently
under review by HHS and will be provided to jurisdictions once OMB approval of the TANF
Bureau’s revised form and instructions is complete.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, the final
report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-02-09-02015 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




ADMINISTRATION FOR CHILDREN AND
FAMILIES TANF BUREAU—INTERNAL
 CONTROL REVIEW OF THE PROCESS
FOR AWARDING AMERICAN RECOVERY
  AND REINVESTMENT ACT FUNDS




                       Daniel R. Levinson
                        Inspector General

                          March 2010
                         A-02-09-02015
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health and
Human Services and its agencies are:

      Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

      Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

      Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

      Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Administration for Children and Families TANF Bureau

The Temporary Assistance for Needy Families (TANF) program, a block grant program,
provides eligible families with work opportunities and other assistance, including basic
assistance payments for such ongoing basic needs as food, clothing, shelter, and utilities. The
TANF block grant is administered by State, territorial and tribal agencies. The TANF program is
administered on the Federal level by the Administration for Children and Families (ACF), Office
of Family Assistance’s TANF Bureau.

The Recovery Act provided $5 billion in supplemental funding to the Emergency Contingency
Fund (Emergency Fund), which is administered by the TANF Bureau. The funds are intended to


                                                 i
provide additional revenue to States, territories, and tribes that have an increase in caseloads and
basic assistance expenditures, or an increase in expenditures related to short-term benefits or
subsidized employment. The funds, which will be awarded on a first-come, first-served basis,
may be used in the same way that annual Federal TANF block grants funds are spent, except a
jurisdiction may not transfer the funds to other ACF block grant programs.

OBJECTIVE

Our objective was to assess the internal controls the TANF Bureau has in place for awarding
grants funded under the Recovery Act and to determine whether the controls have been suitably
designed.

SUMMARY OF FINDINGS

Most of the internal controls over the grant award process used to award Recovery Act funds, as
described by TANF Bureau management, are suitably designed to provide reasonable assurance
that the specified internal controls objectives would be achieved if the described internal controls
were complied with satisfactorily and applied as designed. However, the Recovery Act
established TANF funding mechanisms that used caseload and expenditure information that was
not readily available to ACF. According to its Recovery Program Plan submitted to OMB, the
TANF Bureau does not have internal control procedures in place to ensure the accuracy of
estimated caseload and expenditure information submitted by grantees. The TANF Bureau has
subsequently developed procedures to reconcile estimated information with actual data and for
remitting funds resulting from overpayments due to estimated data. The procedures are currently
under review by HHS and will be provided to jurisdictions once OMB approval of the TANF
Bureau’s revised form and instructions is complete.

This report provides a sufficient understanding of the TANF Bureau’s grant process for awarding
Recovery Act funds to grantees as it pertains to internal control objectives in the following
internal control areas:

      authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and




                                                 ii
   segregation of duties: key duties and responsibilities need to be divided or segregated
    among different people to reduce the risk of error or fraud.




                                            iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Recovery Act Requirements .................................................................................1
              Administration for Children and Families TANF Bureau ....................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY..........................................................2
               Objectives .............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

RESULTS OF REVIEW ............................................................................................................3

          AUTHORIZATION AND APPROVAL..........................................................................4
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy............4
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used to Publicize the
                Program Are in Accordance With Laws, Regulations, Recovery Act
                Guidance, and Agency Policy............................................................................4
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy .....................................................................5
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance With Laws,
                Regulations, Recovery Act Guidance, and Agency Policy................................5
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place...........................5

          ACCURACY, COMPLETENESS, AND VALIDITY.....................................................6
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an
                Economical and Efficient Manner .....................................................................6
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used to Process and Approve Grant
                Applications and Related Transactions Are Efficient........................................6
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That the Agency Has Mechanisms in Place to Timely
                Award Grant and Contract Funds ......................................................................6



                                                                    iv
          Internal Control Objective 4: Internal Controls Provide Reasonable
            Assurance That Only Those Grant Requests That Meet the Eligibility
            Requirements Should Be Approved...................................................................6
          Internal Control Objective 5: Internal Controls Provide Reasonable
            Assurance That Grantee Records Should Be Periodically Substantiated
            and Evaluated.....................................................................................................7

PHYSICAL SAFEGUARDS AND SECURITY..............................................................7
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical
       Forms, Processing Areas, and Processing Procedures Are Permitted
       Only in Accordance With Policy .......................................................................7

ERROR HANDLING .......................................................................................................8
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the Administration for Children and Families
      Accurately and Promptly Classifies, Summarizes, and Reports
      Adjustments to Grant Application Information and Records ............................8

SEGREGATION OF DUTIES .........................................................................................8
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That TANF Bureau Officials in the Review Group, Are Not the
       Officials That Actually Approved the Recovery Act Funds..............................8




                                                          v
                                               INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

          Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

          Recovery Act funds are transparent to the public, and the public benefits of these funds
           are reported clearly, accurately, and in a timely manner.

          Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

          Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

          Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and required that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Administration for Children and Families TANF Bureau

The Temporary Assistance for Needy Families (TANF) program, a block grant program,
provides eligible families with work opportunities and other assistance, including basic
assistance payments for such ongoing basic needs as food, clothing, shelter, and utilities. The
TANF block grant is administered by State, territorial and tribal agencies. The TANF program is

1
    Accessed at http://www.hhs.gov/recovery/reports/index.html on October 29, 2009.


                                                          1
administered on the Federal level by the Administration for Children and Families (ACF), Office
of Family Assistance’s TANF Bureau.

The Recovery Act provided $5 billion in supplemental funding to the Emergency Contingency
Fund (Emergency Fund), which is administered by the TANF Bureau. The funds are intended to
provide additional revenue to States, territories, and tribes that have an increase in caseloads and
basic assistance expenditures, or an increase in expenditures related to short-term benefits or
subsidized employment. 2 The funds, which will be awarded on a first-come, first-served basis,
may be used in the same way that annual Federal TANF block grants funds are spent, except a
jurisdiction may not transfer the funds to other ACF block grant programs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls the TANF Bureau has in place for awarding
grants funded under the Recovery Act and to determine whether the controls have been suitably
designed.

Scope

We assessed the TANF Bureau’s internal controls over the grant award process used to award
Recovery Act funds to States, territories, and tribes. Our assessment was limited to determining
whether existing controls adequately achieved the control objectives for: (1) authorization; (2)
accuracy, completeness and validity; (3) physical safeguards and security; (4) error handling; and
(5) segregation of duties. We did not perform procedures to determine the overall operating
effectiveness of the TANF Bureau’s internal controls. Accordingly, we express no opinion on
the operating effectiveness of any aspect of the TANF Bureau’s internal controls over the grant
award process used to award Recovery Act funds, individually or in the aggregate.

We performed fieldwork at the TANF Bureau’s offices in Washington, D.C., from May through
July 2009.

Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of TANF Bureau’s internal control environment, we:

       reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
        by OMB, that the TANF Bureau must follow for awarding grants;

       reviewed the TANF Bureau’s organizational structure, including segregations of
        functional responsibilities, policy statements, operating manuals, and personnel policies;
2
 The TANF Bureau will compare grantees’ fiscal year (FY) 2008 or FY 2008 caseload and expenditure data to FYs
2009 and 2010 data to determine whether there was an increase in caseload and expenditures.


                                                      2
      interviewed TANF Bureau management as well as operations, administrative, and other
       personnel responsible for developing, assuring adherence to, and applying internal
       controls; and

      reviewed the grant award process used to award one grant funded with Recovery Act
       funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

Most of the internal controls over the grant award process used to award Recovery Act funds, as
described by TANF Bureau management, are suitably designed to provide reasonable assurance
that the specified internal controls objectives would be achieved if the described internal controls
were complied with satisfactorily and applied as designed. However, the Recovery Act
established TANF funding mechanisms that used caseload and expenditure information that was
not readily available to ACF. According to its Recovery Program Plan submitted to OMB, the
TANF Bureau does not have internal control procedures in place to ensure the accuracy of
estimated caseload and expenditure information submitted by grantees. The TANF Bureau has
subsequently developed procedures to reconcile estimated information with actual data and for
remitting funds resulting from overpayments due to estimated data. The procedures are currently
under review by HHS and will be provided to jurisdictions once OMB approval of the TANF
Bureau’s revised form and instructions is complete.

This report provides a sufficient understanding of the TANF Bureau’s grant process for awarding
Recovery Act funds to grantees as it pertains to internal control objectives in the following
internal control areas:

      authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and


                                                 3
       segregation of duties: key duties and responsibilities need to be divided or segregated
        among different people to reduce the risk of error or fraud.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

       The TANF Bureau’s policy is to apply its financial and programmatic rules pertaining to
        Federal TANF block grant funds to the Emergency Funds.

       Grantees may request TANF Emergency Funds equal to 80 percent of the increase in
        current quarterly expenditures compared to expenditures from the same quarter in a base
        year of either fiscal year 2007 or 2008.

       The Recovery Act imposes a cumulative cap on the amount of Emergency Funds that a
        grantee can receive of 50 percent of the grantee’s annual Federal TANF family assistance
        grant.

       The TANF Bureau’s policy is for States, territories, and tribes to submit estimated
        quarterly caseloads and expenditures when applying for Emergency Funds. At the end of
        the fiscal year, grantees should reconcile their submitted quarterly estimates with actual
        expenditure data. In addition, the TANF Bureau will review the final caseload and
        expenditure data submitted by the grantees to ensure that the grantees receive the proper
        amount of funding.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used to Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

       OMB implementation guidance for the Recovery Act requires Federal agencies to
        provide information on funding notifications made for all award types on
        http://www.recovery.gov with a link to the agency’s Web site.

       The TANF Bureau provides information regarding grants to existing TANF program
        grantees. 3

       The ACF’s Web site provides resource materials to potential grantees about applicable
        regulations and policies governing the administration of Recovery Act funds. In addition,
        the TANF Bureau made grant information available through press releases.
3
 For example, the TANF Bureau issued a policy announcement (TANF-ACF-PA-2009-01, dated April 3, 2009),
notifying grantees that additional funding was available for fiscal year 2009 under the Recovery Act. The
announcement included a link to the ACF Web site.



                                                     4
Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

           The TANF Bureau’s grant application processing procedures are defined and
            communicated in grant cycle memos, program instructions, and program guidance.

           The TANF Bureau does not have a competitive process for awarding a mandatory block
            grant. Rather, the grant application process is limited to 112 existing TANF grantees. 4

           The TANF Bureau has developed the Form OFA-100, Emergency Fund Request form, to
            apply for Recovery Act funds.

           ACF management has selected a group of officials to review and analyze information
            submitted by grantees. The group examines caseload and expenditure data reported in
            each category to ensure that they are in accordance with TANF Bureau requirements.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use and Reporting of Grant Funded Operations Are in
Accordance With Laws, Regulations, Recovery Act Guidance, and Agency Policy

           TANF Bureau grantees are required to meet eligibility requirements set forth in section
            2101 of the Recovery Act. The TANF Bureau requires applications for Emergency
            Funds to include actual expenditures and caseload information related to a specific
            quarter. Expenditures during a quarter should reflect the amount actually expended (or
            estimated to be expended) for that quarter.

           Pursuant to 45 CFR 92.20 and 45 CFR 92.42, grantees are required to maintain pertinent
            documentation related to caseload and expenditure data that support their request for
            grants funds. In addition, grantees must submit expenditure data that is comparable for
            each quarter of the base year and for each quarter for which it is requesting Federal funds.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place

           Upon approval of Emergency Funds, the ACF issues a Notice of Grant Award to the
            grantee. In addition, the grantee is also provided with a copy of the terms and conditions
            of the grant. This document mandates and specifies the manner in which funds are to be
            used and the manner in which the grantee is to conduct business.




4
    The number of existing grantees is comprised of 50 States, 3 territories, and 59 tribes.


                                                              5
ACCURACY, COMPLETENESS, AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

      The TANF Bureau requires that individuals in the grant award process be sufficiently
       qualified and receive adequate training.

      ACF uses a predefined template system to ensure that all program announcements follow
       OMB standards as well as all HHS and ACF policies.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used to Process and Approve Grant Applications and Related Transactions
Are Efficient

      Grant applicants may submit electronic or hard copy Form OFA-100s. ACF uses several
       systems to track and fund grants, including the Grants Administration, Tracking &
       Evaluation System, the Unified Financial Management System, and the Payment
       Management System.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency Has Mechanisms in Place to Timely Award Grant Funds

      ACF Central and Regional Office staff work together to ensure that grantees have
       accurate and up-to-date information.

      TANF Bureau officials said that they expect to contact grant applicants within two weeks
       of receiving requests to inform the applicants about the grant amount awarded or to
       request further information concerning the application.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Only
Those Grant Request That Meet Eligibility Requirements Should Be Approved

      The Recovery Act requires that any grantee applying for Emergency Funds must meet at
       least one of the following three conditions for a quarter during FY 2009 or FY 2010:

       o The grantee’s average monthly assistance caseload in a quarter is higher than its
         average monthly assistance caseload for the corresponding quarter in the Emergency
         Fund base year, and its expenditures for basic assistance in the quarter are higher than
         its expenditures for such assistance in the corresponding quarter of the Emergency
         Fund base year.

       o The grantee’s expenditures for non-recurrent short-term benefits in the quarter are
         higher than its expenditures for such benefits in the corresponding quarter of the
         Emergency Fund base year.



                                               6
        o The grantee’s expenditures for subsidized employment in the quarter are higher than
          such expenditures in the corresponding quarter of the Emergency Fund base year.

       The TANF Bureau will review Emergency Fund grant applications to determine
        compliance with Recovery Act requirements. However, the Recovery Act established
        TANF funding mechanisms that used caseload and expenditure information that was not
        readily available to ACF. According to its Recovery Program Plan submitted to OMB,
        the TANF Bureau does not currently have internal control procedures in place to ensure
        and validate the accuracy of estimated caseload and expenditure information submitted
        by grantees. 5 TANF Bureau officials stated that section 417 of the Social Security Act,
        which prohibits the Federal Government from regulating how a State operates its TANF
        program, limited the TANF Bureau’s capacity to monitor the accuracy of States’
        estimated caseload and expenditure information submitted in prior quarters.

       The TANF Bureau has developed procedures to reconcile estimated caseload and
        expenditure information with actual data and for remitting funds resulting from
        overpayments due to estimated data. The procedures are currently under review by HHS
        and will be provided to jurisdictions once OMB approval of the TANF Bureau’s revised
        form and instructions is complete.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

       Grantees expending more than $500,000 in a fiscal year are required to obtain audits of
        their organization’s operations annually from independent public accountants in
        accordance with OMB Circular A-133 and 45 CFR § 74.26.

       TANF Bureau program officials use reports, correspondence from grantees, audit reports,
        site visits, and other available information to monitor costs and performance results,
        identify potential problems, and identify areas where technical assistance or enforcement
        action may be necessary.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

       Access to ACF facilities is electronically controlled. Access to various computer systems
        used to track and manage grants are password protected.

       Emergency Fund grant applications files are safeguarded in a locked cabinet in the TANF
        Bureau Director’s office. Only authorized personnel are allowed to access these records.

5
  Pursuant to OMB’s updated initial implementing Recovery Act guidance (February 18, 2009), Federal agencies are
required to prepare Recovery Program Plans for each Recovery Act program specifically named in the legislation.


                                                       7
ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
Administration for Children and Families Accurately and Promptly Classifies,
Summarizes, and Reports Adjustments to Grant Application Information and Records

      Emergency Fund requests are periodically compared with underlying documents. In
       addition, procedures are implemented to detect and correct misstatements and to evaluate
       recorded balances.

      The TANF Bureau allows applicants the opportunity to correct errors identified during
       the application process and re-submit the corrected information. When the TANF Bureau
       identifies an error, management is notified and applicants are requested to provide further
       information concerning the application.

      The Division of Mandatory Grants (DMG) officials verify that the awarded amount does
       not exceed the cumulative cap (50 percent of the annual Family Assistance Grant) for the
       two-year period.

      A rejection letter is sent to applicants not meeting the requirements.

SEGREGATION-OF-DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
TANF Bureau Officials in the Review Group, Are Not the Officials That Actually
Approved the Recovery Act funds

      The review of the applications for Emergency Funds is conducted by a group consisting
       of individuals from different offices within ACF and with different expertise,
       backgrounds, and level of responsibilities.

      The grant application is approved by the Director, Office of Family Affairs, based on the
       review group recommendation.

      DMG reviews the accuracy of funds awarded and completes the award process by
       making the funds available to the grantees. In order to maintain adequate controls, DMG
       officials are not part of the review group.




                                                 8
